                      U.S. ATTORNEY JENNY A. DURKAN
                                   WESTERN DISTRICT OF WASHINGTON

_____________________________________________________________________________

  FOR IMMEDIATE RELEASE                            CONTACT:       PRESS OFFICE
  OCTOBER 14, 2011                                                (206) 553-4110



    KENT COUPLE PLEADS GUILTY TO TWENTY YEAR DISABILITY FRAUD
                                          SCHEME
    Over Twenty Years Illegally Collected More than $320,000 in State and Federal Benefits

        RONNIE GEORGE, 49, and NANCY STONE, 45, both of Kent, Washington, pleaded
guilty this afternoon in U.S. District Court in Seattle to a long-running scheme to defraud both
the Social Security Administration and state social welfare programs. The two face up to five
years in prison and $250,000 in fines for Social Security Fraud, when they are sentenced by U.S.
District Judge Thomas S. Zilly on January 19, 2012. They will also be ordered to pay restitution
of more than $320,000.

        According to the plea agreement, beginning in 1990, RONNIE GEORGE posed as
mentally disabled in order to obtain Social Security benefits. On his application materials,
GEORGE claimed his friends took care of his daily needs such as dressing, shopping and
cooking. He indicated on the form that he “watched Sesame Street” and played with toys such as
“my cars and cowboys and G.I. Joes.” In 1999, the couple again filled out affirmations that
GEORGE was disabled. NANCY STONE claimed he could not work or drive. In 2009,
GEORGE filed another form claiming he had “never worked.” In April 2010, at an interview
with a Social Security Administration representative, the couple misrepresented their
relationship, claiming that STONE was a caregiver, not GEORGE’s common-law wife, and that
GEORGE had never worked.

        In fact, while claiming disability, GEORGE and STONE ran a successful business buying
and selling vehicles and RVs. GEORGE purchased vehicles at auction, worked on them
mechanically, and negotiated sales with buyers.

        In addition to fraudulently collecting more than $139,000 in Social Security disability
benefits between 1990, and July 2011, the couple also illegally collected medical, housing and
caregiver benefits. NANCY STONE was paid more than $150,000 by the Washington State
Department of Social and Health Services (DSHS) based on the couple’s representations that
STONE was a caregiver for the supposedly disabled GEORGE. The couple also collected more
than $10,000 from DSHS for GEORGE’S medical bills. Between January 2010 and July 2011,
they collected another $14,000 from the U.S. Department of Housing and Urban Development
(HUD) for housing assistance to which they were not entitled.

        The case is one of a number of disability fraud cases filed in U.S. District Court in the
Western District of Washington this year. The cases are being investigated by the Social Security
Office of Inspector General (SSA-OIG) Cooperative Disabilities Investigation Unit and the U.S.
Department of Housing and Urban Development Office of Inspector General (HUD-OIG), with
assistance from the Washington State Patrol, the Washington State Department of Social and
Health Services Office of Fraud and Accountability, and the Washington State Department of
Licensing Fraud Investigation Unit.

       The cases are being prosecuted by Assistant United States Attorney Mary K. Dimke and
Special Assistant United States Attorney Seth Wilkinson. Mr. Wilkinson is an attorney with the
Social Security Administration specially designated to prosecute Social Security fraud in federal
court.

       For additional information please contact Emily Langlie, Public Affairs Officer for the
United States Attorney’s Office, at (206) 553-4110 or Emily.Langlie@USDOJ.Gov.
